BECKER GALLAGHER
Briefs

and

DoNNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Reply in Support of Petition
for Writ of Certiorari in 19-278, Pfizer, Inc. And
Greens tone LLC v. Superior Court of California for the
County of Los Angeles, et al., was hand-filed to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 5th day of November, 2019:
Burton LeBlanc
BARON & BUDD, P.C.
2600 Citiplace Dr.
Baton Rouge, LA 70808
(225) 927-5441
ble blanc@baronbudd.com
Charles G. Orr
BARON & BUDD, P.C.
3102 Oak Lawn Ave., Suite 1100
Dallas, TX 75219
(214) 521-3605
Counsel for Respondents
Real Parties in Interest, Plaintiffs in Lipitor Cases

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington , DC 20005

Joseph Lane Clerk/Executive Officer of the Court
Court of Appeal, Second Appellate District
300 South Sprint Street
Second Floor, North Tower
Los Angeles, CA 90013
Hon. Carolyn N. Kuhl
Los Angeles County Superior Court
Spring Street Courthouse
312 North Spring Street
Department 012
Los Angeles, CA 90012
(213) 310-7012
Frederick Bennett III
Los Angeles County Superior Court
111 N Hill St., #546
Los Angeles, CA 90012

Michael H. McGinley
Counsel of Record
DECHERTLLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
Michael.McGinley@dechert.com
Sheila L. Birnbaum
Mark S. Cheffo
Rachel B. Passaretti-Wu
Lincoln Davis Wilson
DECHERTLLP
Three Bryant Park
1095 Sixth Avenue
New York, NY 10036
Justin M. Romeo
DECHERTLLP
2929 Arch Street
Philadelphia, PA 19104
Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 5, 2019.

Donna J. Wolf
Becker Gallagher Legal P u lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary ~
[seal]

J LIE NNE \(ERSHNE_R
11

'.ll,Jry puulic, Slate of.Ohio
,ly c 0 rnmisslon Expires
February 21, 2023

